TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Steps Can Be Taken to Enhance the
                            Quality of Audits Involving
                             Small Corporate Returns



                                       September 29, 2011

                              Reference Number: 2011-30-113




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 2(f) = Risk Circumvention of Agency Regulation or Statute


 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


STEPS CAN BE TAKEN TO ENHANCE                       While the IRS has experienced an increase in
THE QUALITY OF AUDITS INVOLVING                     the amount of recommended additional taxes
SMALL CORPORATE RETURNS                             from small corporate audits in recent years,
                                                    additional steps can be taken at the examiner
                                                    and first-line manager levels to improve the
Highlights                                          quality of corporate examinations.
                                                    TIGTA reviewed a nonstatistical sample of
Final Report issued on                              51 closed corporate audits and found potential
September 29, 2011                                  quality concerns in 19 of the audits reviewed.
                                                    Many of the quality concerns involved issues
Highlights of Reference Number: 2011-30-113         between the corporate return and other returns
to the Internal Revenue Service Commissioner        that were or should have been filed by the
for the Small Business/Self-Employed Division.      corporation (e.g., information returns and
                                                    employment tax returns) or that were related to it
IMPACT ON TAXPAYERS                                 (e.g., the shareholder’s individual tax return).
Many corporations in the United States are          WHAT TIGTA RECOMMENDED
considered closely held because they are owned
by one shareholder or a closely knit group of       TIGTA recommended that the Director, Exam
shareholders. As such, the shareholders             Policy, Small Business/Self-Employed Division,
typically have a significant amount of control      provide additional guidance to first-line
over managing and directing the day-to-day          managers to improve the feedback provided to
operations of the corporation. This, in turn,       field examiners on using the IRS’s automated
provides opportunities to improperly structure      information systems to enhance the quality of
transactions so they reduce the income taxes        their required filing checks during corporate
owed by the corporation or the shareholders.        audits.
Corporations and shareholders that take
advantage of such opportunities to understate       In their response to the report, IRS officials
their tax liabilities can create unfair burden on   agreed with the recommendation and plan to
honest taxpayers and diminish the public’s          issue a memorandum to first-line managers
respect for the tax system.                         focusing on utilizing automated information
                                                    systems as a tool to enhance required filing
WHY TIGTA DID THE AUDIT                             checks. The memorandum will also address
                                                    feedback provided to field examiners.
The overall objective of this review was to
determine whether Small Business/
Self-Employed Division examiners are
conducting audits of corporate tax returns in
accordance with Internal Revenue Service (IRS)
procedures and guidelines. The review is
included in our Fiscal Year 2011 Annual Audit
Plan and addresses the major management
challenge of Tax Compliance Initiatives.
WHAT TIGTA FOUND
IRS management has established many key
procedures and guidelines for auditing corporate
returns. This has likely contributed to an upward
trend in the amount of recommended additional
taxes generated from audits of small
corporations.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 29, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Steps Can Be Taken to Enhance the Quality of
                             Audits Involving Small Corporate Returns (Audit # 201030026)

 This report presents the results of our review to determine whether Small Business/
 Self-Employed Division examiners are conducting audits of corporate tax returns in accordance
 with Internal Revenue Service (IRS) procedures and guidelines. The review is included in our
 Fiscal Year 2011 Annual Audit Plan and addresses the major management challenge of Tax
 Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                                     Steps Can Be Taken to Enhance the Quality of
                                       Audits Involving Small Corporate Returns




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Overall Productivity Trends Are Favorable for Audits of Corporations
          in the Small Business/Self-Employed Division ............................................ Page 3
          Despite the Overall Favorable Trend of Audit Productivity Indicators,
          the No-Change Percentage of Corporate Audits Is a Concern ..................... Page 5
                    Recommendation 1:........................................................ Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Civil Penalty Lead Sheet ...................................................... Page 16
          Appendix V – Multi-Year and Related Returns Lead Sheet......................... Page 18
          Appendix VI – Management’s Response to the Draft Report ...................... Page 20
        Steps Can Be Taken to Enhance the Quality of
          Audits Involving Small Corporate Returns




               Abbreviations

DIF      Discriminate Index Function
EQRS     Embedded Quality Review System
FY       Fiscal Year
IDRS     Integrated Data Retrieval System
IRS      Internal Revenue Service
LUQ      Large, Unusual, or Questionable
NQRS     National Quality Review System
NRP      National Research Program
SB/SE    Small Business/Self-Employed
                            Steps Can Be Taken to Enhance the Quality of
                              Audits Involving Small Corporate Returns




                                       Background

Many corporations in the United States are considered closely held because they are owned by
one shareholder or a closely knit group of shareholders. As such, the shareholders typically have
a significant amount of control over managing and directing the day-to-day operations of the
corporation. This, in turn, provides opportunities to improperly structure transactions so they
reduce the income taxes owed by the corporation, the shareholders, or both. Corporations and
shareholders that take advantage of such opportunities to understate their tax liabilities can create
an unfair burden on honest taxpayers and diminish the public’s respect for the tax system.
For example, a large dividend could be paid to a shareholder but misclassified as a bonus so the
payment can be used to reduce the income taxes owed by the corporation. In other instances,
shareholders may mistakenly believe that money can be loaned between themselves and the
corporation without any income tax consequences. When a shareholder takes the earnings of a
corporation in the form of a loan, the shareholder has tax-free use of corporate funds. Unless a
true debtor-creditor relationship exists, the loan can be characterized by the Internal Revenue
Service (IRS) as a dividend payment that is taxable to the shareholder. Because of these and
numerous other related party issues, it is critical that examiners follow IRS procedures and
guidelines when auditing a closely held corporation, and scrutinize all transactions between a
corporation and its shareholders.
The IRS uses a variety of sources to select corporate returns for examination. One source is the
Discriminate Index Function (DIF), which is an automated system for scoring corporate tax
returns according to their audit potential. In general, the higher the DIF score, the greater the
chance the audit will result in a material tax change. The IRS also allows returns to be selected
through non-DIF sources, such as referrals from State government agencies. Once selected,
audits of corporations typically involve a face-to-face audit by an IRS revenue agent (field
examiner). In general, field examiners deal with complex tax issues on business returns
(e.g., sole proprietors, corporations, partnerships, etc.) and conduct their audits at the taxpayer’s
place of business. In contrast, IRS tax compliance officers (office examiners) deal with less
sophisticated tax issues on individual tax returns and conduct their audits at a local IRS office.
Regardless of whether an audit is conducted in the field or an IRS office, examiners are required
to determine whether taxpayers are filing all required tax returns. The initial step in this process
is to access internal data sources and verify that required prior and subsequent year tax returns,
related tax returns, information returns, and employment tax returns were filed. In addition to
verifying that tax returns were filed, filing checks require examiners to evaluate the tax returns
for potential areas of noncompliance and expand the audit to include additional tax returns as
warranted. Properly executed filing checks are designed to ensure voluntary compliance and to
leverage resources by increasing the overall compliance coverage of every audit.

                                                                                               Page 1
                          Steps Can Be Taken to Enhance the Quality of
                            Audits Involving Small Corporate Returns



This review was performed at the Small Business/Self-Employed (SB/SE) Division Headquarters
in New Carrollton, Maryland, during the period August 2010 through May 2011. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 2
                                  Steps Can Be Taken to Enhance the Quality of
                                    Audits Involving Small Corporate Returns




                                        Results of Review

Although overall productivity indicators are trending favorably for audits of small corporations
in the SB/SE Division, the number of audits closed as no-change (i.e., without any recommended
change to the tax liability reported by the corporation) is a concern. In Fiscal Years (FY) 2006
through 2011 (through March 2011), an average of 32 percent of the corporate returns audited in
the SB/SE Division were no-changed.
The Treasury Inspector General for Tax Administration does not know what the no-change rate
should be for corporate audits in the SB/SE Division. However, no-changing roughly one out of
every three corporate returns audited in the last 5½ fiscal years indicates there may be room for
improvement in how returns are identified for audit and/or how examiners are conducting audits.

Overall Productivity Trends Are Favorable for Audits of Corporations
in the Small Business/Self-Employed Division
During FY 2010, the SB/SE Division closed examinations of 14,527 corporate returns. This
represents about 0.17 percent of corporate returns filed with the SB/SE Division during Calendar
Years 2006 through 2009.1 In most of these audits, the examiners conducted face-to face
(fieldwork) audits which resulted in $381 million in additional taxes recommended. Two
measures of productivity from these audits are the amount of additional taxes recommended for
each return audited and the amount of additional taxes recommended for each hour examiners
apply to an audit.
Overall, we found that, while the number of months from the receipt of the tax return to the
completion of the examination has remained fairly stable since FY 2006, the amount of
additional taxes recommended on both a return and hourly basis has been increasing. As
Figure 1 shows, the recommended additional taxes on a return basis increased about 58 percent
from $16,576 in FY 2006 to $26,222 in FY 2010, which was the latest full year of audit
productivity data available during our review. There may be additional productivity benefits
from shareholder or other related party returns for these corporate audits, but IRS management
information systems do not have the capability to measure this.




1
    Multiple tax returns for a given taxpayer may be under examination at one time.
                                                                                          Page 3
                                Steps Can Be Taken to Enhance the Quality of
                                  Audits Involving Small Corporate Returns



     Figure 1: Total Cycle Time, Average Additional Taxes Recommended (Per
       Examined Return and Per Examiner Hour), and No-Change Rates From
          Corporate Audits for FYs 2006 to FY 2011 (Through March 2011)

                          Total Cycle            Additional      Additional
                             Time                  Taxes            Taxes
                        (Return receipt date   Recommended      Recommended
                           to examination
                          completion date,     per Examined     per Examiner          No-Change
              FY             in months)           Return            Hour                 Rate
             2006               25                $16,576              $384                37%
             2007               25                $20,180              $523                38%
             2008               22                $20,784              $552                28%
             2009               23                $26,287              $729                32%
             2010               24                $26,222              $704                28%
             2011               27                $32,477              $843                27%
         Source: Our analysis of FYs 2006 through 2011 (through March 2011) audited corporate
         returns as reflected in the Audit Information Management System.2

One factor that may be contributing to the increasing amount of recommended additional taxes in
corporate audits is that statistics indicate the SB/SE Division is relying less on the DIF to select
corporate returns for audit and more on non-DIF audit sources. This trend would be in line with
the IRS’s policy and procedures to use non-DIF sources if the audit potential appears to be
higher than it would be from using DIF sources. Non-DIF sources are typically used to select
returns that have specific issues or characteristics that indicate noncompliance, and were used to
initiate 45 percent of the corporate audits closed in FY 2010.
Other factors contributing to the upward trend in recommended additional taxes are the
procedures and techniques (management controls) that have been established to assist examiners
in performing audits. For example, the SB/SE Division has developed and implemented a
number of audit lead sheets for examiners that contain suggested audit techniques and practices,
an overview of applicable tax laws, and other information. As shown in Appendix IV, the Civil
Penalty Approval Form, which is required to be included in the case files for every audit, solicits
answers from examiners to help guide the penalty decision process during audits. It also serves
as a review guide for group managers who are responsible for evaluating the accuracy of the
penalty decisions made, as well as the quality of work performed by the examiners they
supervise. Appendix V contains another example of an audit lead sheet.

2
 A computer system used by the SB/SE Division to control returns, input assessments/adjustments to the Master
File, and provide management reports.
                                                                                                         Page 4
                           Steps Can Be Taken to Enhance the Quality of
                             Audits Involving Small Corporate Returns



While the favorable trend in the amount of recommended additional taxes is noteworthy, the
number of corporate audits that are closed as a no-change is an area that could be improved.

Despite the Overall Favorable Trend of Audit Productivity Indicators,
the No-Change Percentage of Corporate Audits Is a Concern
In FYs 2006 through 2011 (through March 2011), an average of 32 percent of the corporate
returns audited in the SB/SE Division were closed as a no-change (i.e., without any
recommended change to the tax liability reported by the corporation). As the IRS reported to
Congress in Calendar Year 2003, a high no-change rate means a significant amount of resources
are being devoted to unproductive audits and compliant corporations are being unnecessarily
burdened by audits. Admittedly, the Treasury Inspector General for Tax Administration does not
know how many corporate audits should be closed as a no-change or how many should produce
a tax liability. Nevertheless, no-changing roughly one out of every three corporate returns
audited in the last 5½ fiscal years suggests there may be room for enhancing the effectiveness of
return selection methods and/or the quality of audits.

An upcoming National Research Program (NRP) study could enhance the
effectiveness of return selection methods
IRS officials are taking steps to enhance the effectiveness of return selection methods by
preparing for an upcoming NRP study that will evaluate the extent to which corporations and
their shareholders comply with the tax laws. If effectively planned and implemented, the study
should provide the data needed to update DIF formulas so potentially noncompliant corporate
returns can be more objectively selected for audit while reducing the number of compliant
corporate returns that are audited. DIF formulas for selecting corporate returns for audit were
last updated with results from corporate returns processed in Calendar Year 1988 and audited
under the Taxpayer Compliance Measurement Program. Consequently, it is no surprise that the
passage of time has made using the DIF less useful for identifying and selecting returns for audit,
given the tax law and economic changes that have occurred.
Officials anticipate the upcoming study will involve the identification, selection, and
examination of approximately 2,500 Tax Year 2010 returns from corporations with assets of less
than $250,000. Like prior NRP studies covering other types of tax returns, statistically valid
sampling techniques will be used so the results from the examinations can reliably measure the
level of compliance in the universe of corporations served by the SB/SE Division. IRS officials
will use the results from the sample to generate a new workload identification formula for these
taxpayers. Study results should also help IRS officials better understand the effectiveness of
their programs devoted to corporations. This, in turn, has the potential to enhance service and
promote fairness of the tax system among this segment of taxpayers.



                                                                                            Page 5
                                 Steps Can Be Taken to Enhance the Quality of
                                   Audits Involving Small Corporate Returns



The quality of audits could be enhanced
As the IRS moves forward with the NRP study for corporate audits, it is important to pinpoint
and address concerns in the quality of corporate audits, given that each NRP return audited can
represent thousands of similar returns in the filing population. Otherwise, errors associated with
quality concerns could reduce the reliability of the data collected to measure how well
corporations are complying with the tax law and ultimately used to update the DIF. It is just as
important to pinpoint and address these concerns to help ensure poor audit quality is not a
significant contributing factor to the no-change rate.
We evaluated a nonstatistical sample of 51 corporate audits that were closed as agreed or
no-changed by SB/SE Division examiners in FYs 2008 and 2009 and found that examiners
documented steps taken to plan their audits, advised corporate representatives of their rights,
used a variety of fact-finding techniques to determine the accuracy of return items, and cited
applicable sections of the tax law to support tax adjustments. However, while examiners
followed many key procedures and guidelines for auditing corporate returns, our review
identified potential quality concerns in 19 of the 51 corporate audits. The specific concerns can
be categorized into the following three trends:3
      1. Information/Shareholder Returns Not Adequately Considered (10 cases). Examiners did
         not always document the steps taken to investigate significant differences ($40,000 or
         more) between the amount of labor costs deducted in the corporate return and the
         amounts reflected on employment tax returns filed with the IRS. In other cases, there
         was no documentation showing that steps were taken to verify if information returns
         (Form 1099 series) were required to be filed to report approximately $818,000 in
         payments for outside services such as contract labor, commissions, or management fees.
         Although IRS officials informed us that these type of variances are often explained
         during the course of an examination and do not result in adjustments, we saw no evidence
         in the case files that examiners took any additional steps to investigate the issues.
      2. **********************2(f)**********************************************
         ******************************2(f)**************************************
         ******************************2(f)***************************************
         ******************************2(f)***************************************
         ******************************2(f)***************************************
         ******************************2(f)********************
      3. Large, Unusual, or Questionable (LUQ) Items Not Adequately Addressed (6 cases).
         *******************************1****************************************
         *******************************1****************************************
         *******************************1****************************************


3
    Some sample cases are included in more than one trend and/or example.
                                                                                            Page 6
                               Steps Can Be Taken to Enhance the Quality of
                                 Audits Involving Small Corporate Returns



        ******************************1*****************************************
        ******************************1*****************************************
        ******************************1*****************************************
        ******************************1*************************.
Many of the concerns in our case reviews involved issues between the corporate return and other
returns that were or should have been filed by the corporation (e.g., information returns and
employment tax returns), or with returns related to the corporate return (e.g., the shareholder’s
individual tax return). The checking for returns filed portion of an audit is designed to help
examiners address these issues; however, National Quality Review System (NQRS) reviewers4
have consistently identified filing checks as a problem area during their reviews of field audits.
In the 5-year period from FY 2006 to FY 2010, the NQRS reported that examiners completed
required filing checks in an average of 76 percent of all field examinations reviewed and
considered the audit potential of prior and/or subsequent year and related returns in an average of
77 percent of all field examinations. This means that examiners failed to properly complete
required filing checks in an average of 24 percent of field examinations reviewed, as well as not
considering the audit potential of prior and/or subsequent year and related returns in an average
of 23 percent of all field examinations, as shown in Figure 2.
      Figure 2: Percent of Field Audits Not Meeting Selected Quality Attributes

                                 Percent of Field Audits Not Meeting NQRS Quality Attributes
        NQRS                   Verifying Compliance With
    Reporting Period          Information and Employment            Review of Prior and/or Subsequent
         (FY)                   Tax Filing Requirements                 Year and Related Returns
           2006                              15%                                      22%
           2007                              20%                                      25%
           2008                              25%                                      22%
           2009                              30%                                      23%
           2010                              28%                                      24%
Source: IRS NQRS Quality Attribute Accuracy Reports for FYs 2006 through 2010.




4
 NQRS reviewers evaluate audit case files to determine whether examiners complied with quality attributes
established by the IRS.
                                                                                                            Page 7
                                Steps Can Be Taken to Enhance the Quality of
                                  Audits Involving Small Corporate Returns



Examiners could take better advantage of the IRS’s automated information
systems to complete required filing checks and improve audit quality
The Internal Revenue Manual requires that examiners use the IRS’s automated information
systems to complete filing checks during the planning phase of audits. These internal sources are
designed to provide examiners with fast, reliable data needed to ensure that taxpayers under audit
are filing all required Federal tax returns and assess the audit potential of the return under audit.
At the same time, the sources also reduce the burden audits impose on taxpayers by avoiding the
need to request copies of the tax returns that taxpayers have already filed with the IRS.
We used the following 3 command codes to obtain data from the Integrated Data Retrieval
System (IDRS)5 in evaluating each of the 51 audits in our sample.
    •   BMFOL – This provides online access to business returns and documents related to that
        business that examiners can use to view, compare, and evaluate employment tax returns
        filed by a taxpayer selected for audit. It can be useful for identifying and verifying
        whether the taxpayer has filed required employment tax returns and can assist in
        determining whether wage and salary expenses reported on the income tax return are
        substantially correct.
    •   PMFOL – This provides online access to information reports filed by entities, businesses,
        and individuals that examiners can use to view, compare, and evaluate information
        returns filed by a taxpayer selected for audit. It can be useful for identifying and
        verifying whether the taxpayer has filed required information returns.
    •   RTVUE – This provides online access to nationwide tax return data that examiners can
        use to view, compare, and evaluate specific line items on the individual income tax
        returns. It can be useful for identifying tax issues on shareholders’ tax returns that
        warrant an audit because they pose a high compliance risk.
In a nonstatistical sample of 97 examiners involved in corporate audits in FYs 2008 and 2009,
34 examiners did not have access to any of the command codes listed above. Although all of the
remaining 63 examiners had access to the BMFOL and RTVUE command codes, 26 had not
been provided, or did not use, the PMFOL command code.
During discussions with IRS officials on this issue, we were told that, in some audit groups, the
administrative assistants are responsible for accessing IRS automated information systems and
obtaining hard transcripts of the PMFOL, BMFOL, and RTVUE data. Once obtained, the
transcripts are provided to examiners for use during the audit. We were also told that, if the
transcripts were obtained and provided to examiners, the documentation should be maintained in



5
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 8
                              Steps Can Be Taken to Enhance the Quality of
                                Audits Involving Small Corporate Returns



the audit case files. We checked for documentation of these hard copy transcripts in the
51 sample audit case files discussed in the previous section and found documentation in 8 cases.
To their credit, IRS officials recognized the need to improve the check for return filing portion of
audits. On June 1, 2010, the Internal Revenue Manual was revised to require examiners to
document case files with the results from assessing related returns and prior and/or subsequent
year returns on Multi-Year and Related Returns Lead Sheet (Lead Sheet 130-1).6 The revisions
also indicate that case file documentation should include the internal documents secured (e.g.,
hard copy IDRS transcripts) and any analysis performed in completing the required filing checks.
Because the Internal Revenue Manual revisions were made after the examiners completed their
work in the 51 sample cases, the impact would not be reflected in our case review results.
However, results from the NQRS for FY 2010 continue to indicate problems with examiners
properly completing required filing checks. As Figure 2 shows, the NQRS reported in FY 2010
that filing checks were not completed in about 28 percent of the cases it reviewed. This raises
questions about whether the revisions are having the intended impact and suggests additional
steps should be taken to reinforce the importance filing checks have in conducting a quality
audit.

Performance feedback mechanisms could be better used to hold examiners more
accountable for the quality of their corporate audits
The Treasury Inspector General for Tax Administration7 and the Government Accountability
Office8 have both previously reported that performance feedback can be a very effective tool in
helping employees understand and meet their responsibilities. It also provides opportunities to
give meaningful and constructive feedback on performance, pinpoint and address performance
gaps, and hold employees accountable for following management directives and delivering
results.
We obtained and evaluated FY 2007 through FY 2010 performance feedback relating to two
nonstatistical samples of examiners involved in the audits we reviewed. The feedback included
76 mid-year progress reports, end-of-year appraisals provided to 19 examiners, as well as
comments relating to corporate audits recorded by first-line managers in the Embedded Quality
Review System (EQRS)9 for 20 examiners. There were no performance-related comments to
review for 28 of the mid-year and end-of-year appraisals. Under union rules, appraisal
comments are not required in certain circumstances. However, our review showed that 18 of the

6
  See Appendix V.
7
  Performance Management in the Large and Mid-Size Business Division’s Industry Case Program Needs
Strengthening (Reference Number 2005-30-084, dated May 27, 2005).
8
  IRS Employee Evaluations: Opportunities to Better Balance Customer Service and Compliance Objectives
(GGD-00-1, dated October 1999).
9
  The EQRS allows field managers to provide timely feedback to individual employees through performance case
reviews.
                                                                                                       Page 9
                           Steps Can Be Taken to Enhance the Quality of
                             Audits Involving Small Corporate Returns



19 examiners received written performance feedback from their managers with comments
relating to their audit work. This type of managerial involvement and feedback is important
because, as the following except from the United States Merit Systems Protection Board report
to the President and Congress summarizes, continually monitoring and providing feedback to
employees is a critical component of performance management.
       This component, more than any other, can give employees a sense of how they are doing
       and can motivate them to be as effective as possible. Ideally, through these ongoing
       interactions between employees and supervisors, employees learn how their work fits into
       the goals of the work and how it contributes to the larger mission of the agency.
Although first-line managers are monitoring and providing feedback to examiners, they could do
a better job of citing specific examples of accomplishments and achievements as well as
opportunities for improvement in their performance feedback. During our review of the
performance feedback provided to the 19 examiners, only 8 of the examiners were given specific
feedback about how well transactions between a corporation and its shareholders were
scrutinized during an audit or whether issues between a corporate return and other returns were
properly handled during the filing check portion of the audits. In addition, only 3 (16 percent) of
the examiners were given specific examples for improvement.

Recommendation
Recommendation 1: The Director, Exam Policy, SB/SE Division, should provide additional
guidance to first-line managers to improve the feedback provided to field examiners on using the
IRS’s automated information systems to enhance the quality of their required filing checks
during corporate audits.
       Management’s Response: IRS management agreed with this recommendation and
       will provide a memorandum to first-line managers focusing on utilizing automated
       information systems as a tool to enhance required filing checks during corporate audits.
       This memorandum will also address feedback provided to field examiners relating to
       required filing checks.




                                                                                           Page 10
                                 Steps Can Be Taken to Enhance the Quality of
                                   Audits Involving Small Corporate Returns



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective was to determine whether SB/SE Division examiners are conducting audits
of corporate tax returns in accordance with IRS procedures and guidelines. To accomplish this
objective, we:
I.       Evaluated the adequacy of controls for ensuring that mandatory audit requirements and
         LUQ items are properly considered and applied in corporate audits conducted by the
         SB/SE Division. This included documenting the applicable Internal Revenue Code
         sections, Internal Revenue Manual sections, examiner training materials, and other IRS
         publications that provide the authority and reasons for considering factors that affect
         corporate audits.
II.      Randomly selected a nonstatistical1 sample of 51 audits from a population of
         6,954 corporate audits closed by SB/SE Division field examiners in FYs 2008 and 2009
         as agreed or no-changed.
         A. Reviewed the examination case files and determined if examiners performed the
            following:2
             1. Identified the scope of the audit, beginning with the issues identified by the
                classifier on the classification check sheet.
             2. Performed a pre-contact analysis including a thorough review of the case file to
                identify LUQ items beyond those selected on the classification check sheet.
             3. Determined that taxpayers are in compliance with all Federal tax return filing
                requirements and that all returns reflect the substantially correct tax.
             4. Identified and verified all of the reporting requirements for commissions, labor
                costs (costs of goods sold), subcontract, royalties, management fees, and
                consultant fees.
             5. Determined that the income from the related business entity was included on the
                shareholder/partner’s individual return.



1
  We used nonstatistical samples in all instances because we did not intend to project the results of the samples to the
entire population.
2
  Without access to taxpayer books and records, we determined exceptions based on possible tax consequences
related to available taxpayer data, and IRS officials reviewed the exceptions.
                                                                                                              Page 11
                                Steps Can Be Taken to Enhance the Quality of
                                  Audits Involving Small Corporate Returns



             6. Ensured that any loans to or from shareholders were not distributions of earnings,
                dividend income, or another form of taxable income.
             7. Determined the potential for unreported income, which may have indicated that a
                more in-depth examination of income was warranted. If this was the case, the
                examiner should have discussed the case with the group manager.
             8. Determined if the return had international features and if they meet the mandatory
                referral criteria.
             9. Determined if the case file indicated a decrease in the asset accounts during the
                year and, if so, verified the resulting gains or losses.
             10. Determined if inventory was classified as an issue and, if so, verified that
                 inventories are reported correctly.
             11. Determined if a material adjustment was made in the examination and, if so, that
                 the subsequent year was picked up for examination.
        B. Interviewed SB/SE Division management and program analysts to identify policy and
           procedural issues pertaining to the use of audit requirements and LUQ items in
           corporate audits in the SB/SE Division.
III.    Assessed examiner performance feedback and access to the IDRS3 to identify potential
        reasons for any problems identified in the case reviews.
        A. Randomly selected a nonstatistical sample of 20 examiners from 114 examiners
           involved in the audits we reviewed. We summarized the feedback given to the
           examiners by extracting the requisite information recorded in EQRS attribute
           measures dealing with corporate audits.
        B. Randomly selected a nonstatistical sample of 19 examiners from 114 examiners
           involved in the audits we reviewed. We summarized the feedback dealing with
           corporate audits included in the FYs 2007 through 2010 mid-year and end-of-year
           appraisals given to the selected examiners.
        C. Reviewed the IDRS profiles of the 97 examiners who closed corporate examinations
           selected in Step II and verified that each examiner had the IDRS command codes
           needed to complete filing checks such as BMFOL, PMFOL, and RTVUE.




3
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 12
                           Steps Can Be Taken to Enhance the Quality of
                             Audits Involving Small Corporate Returns



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
examining corporate returns. We evaluated these controls by reviewing source materials,
interviewing management, reviewing examination case files, and researching taxpayer accounts.




                                                                                           Page 13
                         Steps Can Be Taken to Enhance the Quality of
                           Audits Involving Small Corporate Returns



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Robert Jenness, Audit Manager
Ali Vaezazizi, Lead Auditor
Aaron Foote, Senior Auditor
David Hartman, Senior Auditor
Curtis Kirschner, Senior Auditor
Debra Mason, Senior Auditor
Stanley Pinkston, Senior Auditor
William Tran, Senior Auditor




                                                                                      Page 14
                        Steps Can Be Taken to Enhance the Quality of
                          Audits Involving Small Corporate Returns



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Research, Small Business/Self-Employed Division SE:S:R
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                Page 15
                          Steps Can Be Taken to Enhance the Quality of
                            Audits Involving Small Corporate Returns



                                                                                Appendix IV

                          Civil Penalty Lead Sheet

As illustrated in the following example of an audit lead sheet, audit lead sheets contain
techniques, an overview of the applicable procedures, and other information to assist examiners
in performing audits.




                Source: SB/SE Division Workpaper 300-1, dated March 2011.


                                                                                        Page 16
Steps Can Be Taken to Enhance the Quality of
  Audits Involving Small Corporate Returns




                                               Page 17
                Steps Can Be Taken to Enhance the Quality of
                  Audits Involving Small Corporate Returns



                                                                                Appendix V

Multi-Year and Related Returns Lead Sheet




  Source: SB/SE Division Workpaper 130-1, dated April 2010.
  Abbreviations are used for the following terms in this lead sheet: Internal Revenue Manual
  (IRM), taxpayer (TP), and Specialist Referral System (SRS).


                                                                                          Page 18
Steps Can Be Taken to Enhance the Quality of
  Audits Involving Small Corporate Returns




                                               Page 19
         Steps Can Be Taken to Enhance the Quality of
           Audits Involving Small Corporate Returns



                                                 Appendix VI

Management’s Response to the Draft Report




                                                        Page 20
Steps Can Be Taken to Enhance the Quality of
  Audits Involving Small Corporate Returns




                                               Page 21
